                 Department of the Interior
                Office of Inspector General




         udit Report

          U.S. Fish and Wildlife Service
              Federal Assistance Grants
   Administered by the State of Illinois,
      Department of Natural Resources,
from July 1, 2002 through June 30, 2004




          Report No. R-GR-FWS-0004-2005
                             March 2006
       If you have any questions regarding this report, please contact Mr. K. Timothy Gallagher,
Audit Team Leader, at (916) 978-5667 or me at (703) 487-5351.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service




                                               2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts), 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to 75 percent
of the eligible costs incurred under the grants. They also specify that state hunting and fishing
license revenues cannot be used for any purpose other than the administration of the state’s fish
and game department.

Objective
The objectives of our audit were to determine whether costs incurred and claimed under Federal
Assistance grants to the State of Illinois, Department of Natural Resources, were in accordance
with the Acts and related regulations, FWS guidelines, and the grant agreements; whether State
hunting and fishing license revenues were used solely for the Department’s fish and wildlife
programs; and whether program income was reported and used in accordance with federal
regulations.

Scope
The audit work included total recorded outlays of approximately $31.6 million on 74 FWS grants
that were open during the State’s fiscal years (SFYs) 2003 and 2004 ended June 30, 2003 and
2004 (see Appendix 1). We conducted our audit at the Department’s headquarters in Springfield,
Illinois. We also visited eight fish and wildlife areas, two fish hatcheries, five conservation
areas, three state parks, and a recreation area (see Appendix 2). This audit was performed to
supplement, not supplant, the audits required by the Single Audit Act of 1984, as amended and
the Office of Management and Budget Circular A-133. The audit included steps to determine
whether:

      ¾ The Department’s accounting system was adequate to account for grant receipts and
        disbursements.

      ¾ The direct and indirect costs incurred and the in-kind contributions claimed by the
        Department under Federal Assistance grants were necessary and reasonable, allocable,
        accurate, and eligible for reimbursement.

      ¾ The hunting and fishing license certifications were based on official State of Illinois
        records, and the procedures used to prepare those certifications were adequate for
        eliminating duplicate license holders.



1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively.



                                                         3
   ¾ The Department had an adequate system to account for and report license fee revenues,
     and those revenues were used only for the Department’s fish and wildlife programs.

   ¾ Controls over real property and equipment acquired with Federal Assistance funds or
     license revenues were adequate to ensure compliance with applicable requirements.

   ¾ The Department complied with selected grant agreement provisions and requirements of
     the Acts, regulations, and FWS guidance.

   ¾ The State of Illinois enacted assent legislation in compliance with the Acts.

Methodology
We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included examining the evidence supporting selected expenditures charged to the grants by the
Department; interviewing Department employees to ensure that personnel costs charged to the
grants were supportable; and determining whether the Department used hunting and fishing
license revenues solely for sport fish and wildlife program purposes. To the extent possible, we
relied on the work of the Illinois Auditor General to avoid duplication of audit effort. We did not
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We reviewed the accounting systems for labor and license fees in order to identify the internal
controls over transactions recorded in those systems and to test the operation and reliability of
those controls. We also reviewed transactions related to purchases, other direct costs,
drawdowns of reimbursements, in-kind contributions, program income, equipment, and other
property. Based on the results of our initial assessments, we assigned a level of risk to these
systems and, based on the level of risk assigned, we selected a judgmental sample of transactions
for substantive testing. We did not project the results of the substantive tests to the total
population of recorded transactions.

Prior Audit Coverage
On January 14, 2002, we issued an audit report, “U.S. Fish and Wildlife Service Federal Aid
Grants to the State of Illinois Department of Natural Resources for Fiscal Years Ended June 30,
1996, and 1997,” which transmitted a report prepared by the Defense Contract Audit Agency.
We followed up on all significant findings in the DCAA report and determined that three
findings had not been fully resolved. As discussed under the Results of Audit section, these
findings relate to the use of license revenues, documentation of in-kind services, and activities
not authorized in the grant agreement.

We also reviewed the State of Illinois Comprehensive Annual Financial Reports for SFYs 2003
and 2004, and the State’s Single Audit report for SFY 2003. The Sport Fish Restoration and
Wildlife Restoration programs had not been selected for testing in the Single Audit. These




                                                4
reports did not contain any findings that would directly affect the Department’s Federal
Assistance grants.

In addition, we reviewed a report issued by Sikich Gardner & Co., LLP, under a contract with
the Illinois Auditor General, on the Department’s compliance and internal controls. The report
indicated a potential issue with the use of the Wildlife and Fish Fund to fund efficiency
payments, which is addressed in the Results of Audit. In addition, the report included other
issues that could affect Federal Assistance grants. As such, we suggest that FWS monitor the
implementation of the report recommendations.




                                                5
                                   Results of Audit
The Department was generally in compliance with applicable regulatory and grant accounting
requirements with respect to the following:

       ¾ The Department’s accounting system and related internal controls were adequate to
         account for grant receipts and disbursements.
       ¾ Except as discussed in finding A, the Department’s direct and indirect costs claimed
         under the Federal Assistance grants were reasonable, supported, and eligible for
         reimbursement.
       ¾ The Department’s hunting and fishing license certifications were based on official
         State records and the procedures used to prepare those certifications were adequate to
         eliminate duplicate license holders.
       ¾ Except as discussed in finding D, the Department’s controls over real property and
         equipment were adequate to ensure compliance with applicable requirements with
         regard to acquisition, control, and disposal.

However, we identified questioned costs totaling $553,977, and other issues regarding the
Department’s administration of its Federal Assistance programs, as follows:

       A.     We questioned costs totaling $553,977 consisting of (1) $93,698 for activities that
              were not authorized under the grant agreements, (2) $134,147 for labor charges
              that were based on estimated hours rather than actual hours worked, and (3)
              $326,132 for in-kind volunteer services that were not adequately supported.
       B.     The Department may have used license revenues for ineligible activities.
       C.     The Department’s assent legislation was not sufficient to prohibit the use of
              license revenues for ineligible activities.
       D.     An unresolved dispute over land ownership may have resulted in a diversion of
              land purchased with Federal Assistance funds.

A.     Questioned Costs

       1. Costs Claimed for Unauthorized Activities - $93,698. We questioned
costs of $93,698 claimed on two grants for work at cost centers that were not authorized by the
grant agreements. The Code of Federal Regulations (regulations) (50 CFR § 80.16) states,
“Payments shall be made for the Federal share of allowable costs incurred by the State in
accomplishing approved projects.” Grant Nos. W-76-D-37 and W-76-D-38 provided funds for
operation and maintenance and habitat management for specific cost centers. However, included
in the Department’s claim for reimbursement was $93,698 for the maintenance of the following
areas that were not specifically approved in the grant agreement.




                                               6
               COST CENTER                               W-76-D-37           W-76-D-38     Total

              Cost center not listed in grant (Explanation provided that individuals worked
              on approved sites)
               Jubilee College State Park                           $1,802
               Hamilton County Conservation Area                    14,618
               Middle Fork Fish and Wildlife Area                        99          $198
               Wayne Fitzgerrell State Park                            494
               Golconda Marina (Dog Island)                            401
               Wolf Creek State Park (East)                                          2,434
               Eldon Hazlett State Park – Carlyle                                      125
                                                                   $17,414         $2,757 $20,171

              Included on amended list of sites (Amendment effective after audit period)
               Chain O'Lakes State Park                            $1,837         $6,438
               Delabar State Park                                                  1,224
               Lake Murphysboro State Park                          6,053          6,259
               Lasalle Lake Fish and Wildlife Area                  7,082          6,785
                                                                 $14,972         $20,706   $35,678

             Cost center not listed in grant (No explanation provided)
              Mason State Nursery                                                 $298
              C-2000 Region V - Land Mgt.                           $5,587        6,741
              Engineering-Central                                    8,547       16,676
                                                                   $14,134      $23,715    $37,849

               Totals                                             $46,520       $47,178    $93,698

As noted above, the Department stated that costs of $20,171 were related to work performed at
approved cost centers but conducted by individuals who were assigned to cost centers that were
not identified in the grant agreements. In addition, the Department provided a grant amendment
to cover work performed, which reportedly cost $35,678, but the amendment was not effective
until after the audit period. The Department could not provide an explanation for the remaining
charges totaling $37,849. The grant manager was provided a Summary Report on the individual
cost centers charged to the grant and did monitor the labor charges. However, according to
Department staff, the current cost accounting system requires that an employee’s payroll costs be
identified to their assigned cost center regardless of the cost center where an activity may be
performed. As a result, while the grant costs may be supported by an individual’s time sheet, the
location where the activity was performed would not necessarily be accurate.

This issue was included in the January 2002 audit report. In response to that report, the
Department identified specific sites where the majority of the wildlife grant costs would be
eligible for funding. At the exit conference, Department officials proposed eliminating the
specific identification of cost centers in future grants.




                                                   7
       Recommendations
       We recommend that FWS:

       1.      Resolve the questioned costs of $93,698 for unauthorized activities.
       2.      Require the Department to ensure that staff responsible for approving charges to
               grant No. W-76-D receive sufficient information to ensure that charges from cost
               centers which are not identified in the grant agreement are proper charges to the
               grant.

       Department Response

       The Department did not concur with the finding but agreed to “…further define its
       programmatic accounting system in the federal grant documents to better characterize the
       work force that will be performing grant functions and where that work force might be
       physically located.” The Department also provided an explanation of its use of cost
       center codes and an explanation for cost centers C-2000 and Central Engineering.

       OIG Comments

       While the Department did not concur with the finding, it did propose improving its
       programmatic accounting system, which appears to address Recommendation 2.
       However, since FWS elected not to comment on the finding and recommendations, we
       consider them unresolved. FWS should address the findings and recommendations in the
       corrective action plan.

2. Unsupported Labor Charges - $134,147. Labor charges to FWS grants at the
Mazonia-Braidwood Fish and Wildlife Area (FWA) were not based on actual hours worked.
Office of Management and Budget Circular A-87, Attachment B.8.h, requires in part that where
employees work on multiple activities or cost objectives, a distribution of their salaries or wages
will be supported by personnel activity reports or equivalent documentation which must reflect
an after the fact distribution of the actual activity of each employee.

Employees at the Mazonia-Braidwood FWA allocated their hours between nonfederal related
work and Federal Assistance grants based on estimates instead of recording and using actual
hours for each activity. According to the Site Superintendent, the allocation of hours was a close
approximation and probably more conservative than actual hours worked on Federal Assistance
grants. As a result, the labor charges totaling $134,147 to FWS grants were not supported, as
follows:
               Grant Number                           Unsupported Costs
               W-76-D-37                                    $23,625
               W-76-D-38                                      9,633
               F-149-B-2                                     43,553
               F-149-B-3                                     57,336
                                                          $134,147



                                                 8
       Recommendations
       We recommend that FWS:

       1. Resolve the unsupported labor charges of $134,147.

       2. Require the Department to charge labor costs to Federal Assistance grants based on
          signed personnel activity reports that reflect the actual hours worked.

       Department Response

       In response to Recommendation 1, the Department agreed that the labor was allocated
       based on estimates instead of actual hours but that such estimates did not equate to
       unsupported charges. The Department believed that the site’s Plan of Work and the
       estimates of time allocated to each Federal grant provided sufficient support for the labor
       charges. Further, the site personnel believed that the time estimates were a fair reflection
       based on the site’s Plan of Work. The Department acknowledged that the staff did not
       follow agency procedures but believed that the recorded time still fairly reflected an after
       the fact distribution of the time. The Department stated that OMB Circular A-87 requires
       personnel activity reports to reflect an after the fact distribution of the activity each
       employee spent on different grant activities.

       In response to Recommendation 2, the Department agreed to reiterate to staff to record
       labor costs based on actual hours worked, not estimates or projected time allocations.

       OIG Comments

       Since FWS elected not to comment on the finding and recommendations, we consider
       them unresolved. FWS should address the findings and recommendations in the
       corrective action plan.

3. Unsupported In-kind Labor Charges - $326,162. Individual instructors did not
sign time sheets certifying their volunteer hours worked. The Department provided timekeeping
support for the volunteer instructor hours on its Safety Education Class Information Sheet form.
The form identifies hours worked by individual instructors and requires the signature of the lead
instructor.

The regulations (43 CFR § 12.64 (b) (6)) require that, “To the extent feasible, volunteer services
will be supported by the same methods that the organization uses to support the allocability of
regular personnel costs.” The Department requires employees working on Federal Assistance
projects to submit signed time sheets reflecting their actual hours worked.

The FWS Hunter Education Guide, Section 4.1 (current Guide Chapter 4A) states that volunteer
instructors should document their hunter education activity on a signed and dated time/course
report form. In response to a prior audit report finding on this matter, the Department revised its
Safety Education Class Information Sheet to provide for the lead instructor to certify the entire


                                                 9
roster of instructors recording time on that particular sheet. The FWS regional office agreed to
this procedure. As a result, hours and associated in-kind services claimed totaling $326,132 on
grant Nos. W-82-S-31 ($180,830) and W-82-S-32 ($145,302) were not supported by time sheets
that were signed by the volunteer instructors.

       Recommendations
       We recommend that FWS:

       1.     Resolve the unsupported in-kind services valued at $326,162.

       2.     Require the Department to implement a procedure requiring that in-kind
              contributions claimed for volunteer instructors be supported by the same methods
              it uses to document and support labor charges for its own employees.

       Department Response
       The Department did not concur with the finding. The Department stated “The Safety
       Education Class Information Sheet was developed and the procedures surrounding it’s
       use were implemented with the full agreement of the Service.” The Department also
       stated that it would not be feasible to have each individual instructor sign a time sheet
       given the magnitude of the hunter education program in Illinois, which included
       approximately 417 classes with approximately 18,197 students.

       OIG Comments
       The feasibility determination and the adequacy of the Department’s procedures should be
       made by the FWS. However, since FWS elected not to comment on the finding and
       recommendations, we consider them unresolved. FWS should address the findings and
       recommendations in the corrective action plan.

B. Use of License Revenues
The Department used funds from the Wildlife and Fish Fund (Wildlife Fund) for cost centers or
expenditures that may not have been eligible uses of the Wildlife Fund.

During our audit period, the Department received license revenues totaling over $50 million.
The Department recorded these license revenues in seven funds with the majority of the revenues
deposited in the Wildlife Fund. However, revenues from other sources unrelated to license
revenues were also deposited in the Wildlife Fund, and the license revenues lost their identity.
As such, the revenue source for individual expenditures cannot be determined.
The regulations (50 CFR § 80.4) state, “Revenues from license fees paid by hunters and
fishermen shall not be diverted to purposes other than administration of the State fish and
wildlife agency.” According to Part 80.4(b) of the regulation, the administration of a state fish
and wildlife agency “include[s] only those functions required to manage the fish and wildlife-
oriented resources of the State…” In addition, the State limits the use of the Wildlife Fund to



                                                10
“…carrying out of the powers and functions vested by law in the Department….” The listed
functions were all related to fish and game.

The Department did not have an adequate system and controls to ensure that license revenues
were used only for eligible purposes. As a result, we could not determine whether all license
revenues were used for eligible activities. The January 2002 DCAA report identified a similar
finding on the Department’s revenue disbursement system that has not been resolved.

During our review, we noted expenditures from the Wildlife Fund included efficiency payments,
nurseries, forestry, retirement payments, and law enforcement recruitment training that would
not be eligible uses of license revenues unless they were related to fish and wildlife activities.
For example, the Department used license revenues of $599,500 for “efficiency payments” to the
State’s Central Management Services (CMS) for cost savings anticipated to occur as the result of
efficiency initiatives implemented by CMS, such as reengineering of the business processes of
the State. Since the payments were for anticipated cost savings and not an expenditure of funds,
we could not determine the relationship to fish and wildlife activities.

On the other hand, we also noted that the Department provided funding for fish and game
activities through the General Revenue Fund. For example, the Jake Wolf Memorial Fish
Hatchery received funding in SFY 2004 totaling $1.7 million including almost $400,000 from
the General Revenue Fund. In addition, according to Department officials, the Department
expended its own funds for fish and game related activities in State parks. The Department
provided an example of a Plan of Work for the Horseshoe Lake State Park that indicated that fish
and game activities were planned for the site. However, the Department did not account for the
expenditures related to these activities.

At the exit conference, Department officials stated that they were in the process of identifying
the license revenues associated with each of the seven funds and the uses of the license revenues
for fish and wildlife activities. The Department also stated that the review would determine the
allowability of the uses of the license funds such as efficiency payments, nurseries, forestry,
retirement payments, and law enforcement recruitment training.

       Recommendations
       We recommend that FWS:

       1.      Require the Department to provide an accounting of the uses of all license
               revenues for the two-years ending June 30, 2004, in accordance with
               50 CFR § 80.4.

       2.      Require the Department to establish written policies, procedures, and
               management controls to account for the expenditure of license revenues.




                                               11
       Department Response
       The Department did not concur with the finding. The Department viewed the efficiency
       payments as an isolated instance that did not demonstrate an inappropriate use of license
       revenues. The Department further stated that this one payment was not an adequate basis
       to conclude that the Department’s accounting controls were inadequate. The Department
       also stated that its financial management systems and internal controls over license
       revenues substantially meets the criteria of 43 CFR § 12.C. which they believed is more
       authoritative than 50 CFR § 80.4.

       The Department also stated that it “...had an independent contractor perform an
       exhaustive analysis of the use of the license revenues for its major fund receiving such
       revenues for the express purpose of further strengthening the administrative controls over
       the use of license revenues…”

       OIG Comments

       We continue to believe that the efficiency payment and the potential ineligible uses
       provide a sufficient basis to require the Department to demonstrate that it has used license
       revenues in accordance with the cited criteria. While the Department felt that the
       efficiency payment represented a small percentage of the total, the Department had not
       identified this large amount as an inappropriate use of license revenues. Since FWS
       elected not to comment on the finding and recommendations, we consider them
       unresolved. FWS should address the findings and recommendations in the corrective
       action plan.

C. Assent Legislation
Illinois laws do not limit the use of license fees to the administration of the fish and game
department. The Restoration Acts require that before any monies are apportioned to a state, the
state must have passed laws that include a prohibition against the diversion of hunting and
fishing license fees for any other purpose that the administration of the state fish and game
department. Specifically, Illinois Conservation Law Section 515 ILCS 5/30-15 states that no
fishing license fees shall be diverted “for any other purpose than the administration of the
Department of Natural Resources.” Similarly, Illinois Conservation Law Section 520 ILCS 15/2
states that no hunting license fees shall be diverted “for any other purpose than the
administration of said Department [of Natural Resources].” As such, the statutes do not refer to
the State fish and game department.

In addition to the Department’s fish and wildlife responsibilities, the Department has other
responsibilities such as State parks, forest resources, and water resources. Therefore, the current
Illinois Conservation Law would allow the Illinois Department of Natural Resources to divert the
use of license fees for other than the administration of fish and game activities.

According to Department officials, the conflict of terminology between the assent legislation in
Illinois Conservation Law and the Acts was probably due to prior organizational changes. When



                                                12
notified of the issue, the Department contacted their legal staff and determined that the language
in the Conservation Law needs to be corrected. At the exit conference, Department officials
noted that proposed legislation might not be enacted until next year.

       Recommendations
       We recommend that FWS:

       1. Require the State of Illinois to amend its laws on the use of fishing and hunting
          license revenues to conform to the Restoration Acts’ requirements.

       2. Determine whether the Department may continue to participate in the Federal
          Assistance program.

       Department Response
       The Department disagreed with the audit assertion that the assent laws were deficient, but
       provided proposed revisions to the assent legislation.

       OIG Comments
       Since FWS elected not to comment on the finding and recommendations, we consider
       them unresolved. FWS should address the findings and recommendations in the
       corrective action plan.

D. Real Property
During our site visit to the Mermet Lake Conservation Area, the Site Superintendent told us that
an adjacent landowner has claimed ownership of approximately 15 acres of land that belongs to
the State. According to the Site Superintendent, landowners adjacent to the site have harvested
timber and crops from this property. However, a land survey had not been performed to confirm
the ownership of the property. After informing the Department officials of this issue, they said
that a land survey would be performed. At the exit conference, Department officials indicated
that a land survey was in process.

The regulations (50 CFR § 80.14 (b)) state, "Real property acquired or constructed with Federal
Aid funds must continue to serve the purpose for which acquired or constructed." The
regulations (80 CFR § 80.4) also prohibit the diversion of license revenues, or assets acquired
with license revenues, to any purpose other than the administration of the state fish and wildlife
agency. However, since a land survey had not been performed, we were unable to determine the
actual funding source for this land.




                                                13
Recommendations
We recommend that the FWS:

1. Require the Department to conduct a land survey of the area to determine the
   boundary at Mermet Lake CA and, based on the results, determine the funding source
   for the acquisition of the 15 acres in question.

2. Based on the land survey results, resolve any potential diversion of land and/or
   license revenues.

Department Response
The Department did not specifically state concurrence with the finding but stated that it
had performed a survey and identified legal descriptions on several area deeds that
overlapped the State’s boundary. They stated that the survey indicated that the State’s
title appeared to be senior to the deeds. They also stated that the Site Superintendent met
with the adjacent landowners and explained that the boundary problem had been
researched, surveyed and the boundaries properly marked.

OIG Comments

The Department has addressed only that it conducted a survey. The Department has not
determined the funding source for the land or resolved any potential diversions that may
have occurred prior to their survey. Since FWS elected not to comment on the finding
and recommendations, we consider them unresolved. FWS should address the findings
and recommendations in the corrective action plan.




                                        14
                                                                   Appendix 1
                                                                   Page 1 of 2

        ILLINOIS DEPARTMENT OF NATURAL RESOURCES
          FINANCIAL SUMMARY OF REVIEW COVERAGE
             JULY 1, 2002 THROUGH JUNE 30, 2004
Grant             Grant      Claimed      Questioned     Federal
Number           Amount      Costs[1]       Costs         Share
F-29-D-25        $990,713      $877,347
F-29-D-26          954,193    1,001,881
F-52-R-17           94,668       95,271
F-52-R-18          154,675      157,429
F-52-R-19          156,598       99,166
F-65-R-17          275,267      219,758
F-65-R-18          250,815      219,883
F-67-R-17          671,430      642,636
F-67-R-18          698,293      820,432
F-69-R-16          614,379      615,414
F-69-R-17          635,835      642,760
F-69-R-18          691,485      411,426
FW-5-C-45          309,112      337,685
FW-5-C-46          318,384      385,206
W-43-R-50          134,169      130,171
W-43-R-51          148,660      150,970
W-76-D-37        3,354,360    3,813,663        $70,145   $52,609
W-76-D-38        3,365,822    4,393,651         56,811    42,608
W-82-S-31          900,000    1,033,991        180,830   135,623
W-82-S-32          920,000      953,273        145,302   108,976
W-87-R-25          197,277      197,701
W-87-R-26          197,696      199,428
W-99-R-15          344,748      485,973
W-99-R-16          507,830      970,336
F-101-R-14          66,000       71,786
F-101-R-15          68,000       68,219
F-121-D-12       2,210,517    1,976,709
F-121-D-13       2,066,245    1,881,932
F-123-R-9          231,128      233,355
F-123-R-10         242,680      242,668
F-123-R-11         302,680      120,302
F-128-R-7          190,000      190,415
F-128-R-8          196,720      200,714
F-128-R-9          212,000      217,230
F-135-R-5          270,400      274,280
F-135-R-6          295,096      299,828
F-136-R-5          100,000       99,385
F-136-R-6           98,000       99,676




                                  15
                                                                                               Appendix 1
                                                                                               Page 2 of 2

              ILLINOIS DEPARTMENT OF NATURAL RESOURCES
                FINANCIAL SUMMARY OF REVIEW COVERAGE
                   JULY 1, 2002 THROUGH JUNE 30, 2004
  Grant                         Grant             Claimed         Questioned      Federal
  Number                       Amount             Costs[1]          Costs          Share
 F-138-R-5                         99,000             105,102
 F-138-R-6                         99,000               99,612
 F-138-R-7                         99,000               99,406
 F-140-R-4                         88,929               93,039
 F-141-R-4                         84,449               86,602
 F-143-B-1                        921,510              898,567
 F-144-B-1                        312,090              300,560
 F-146-B-1                        230,650               21,643
 F-147-B-1                        754,775              690,342
 F-148-B-1                        767,360              717,646
 F-149-B-2                        333,333              273,410           43,553       32,665
 F-149-B-3                        333,333              317,439           57,336       43,002
 F-150-R-1                         40,000               40,237
 F-150-R-2                         40,000               35,743
 F-151-R-1                         51,008               51,717
 F-151-R-2                         51,526               52,254
 F-152-B-1                        442,925               27,254
 W-106-R-13                       186,752              181,019
 W-106-R-14                       207,512              210,735
 W-112-R-12                       237,869              239,105
 W-112-R-13                       294,035              293,581
 W-130-R-6                        119,668              120,840
 W-135-R-4                        130,859              136,640
 W-135-R-5                        166,122              190,494
 W-136-R-3                        125,127              117,683
 W-136-R-4                        130,361              134,696
 W-137-R-3                        143,814              133,815
 W-137-R-4                         46,725               46,905
 W-139-R-3                         46,288               47,022
 W-140-R-3                         69,573               69,154
 W-142-R-2                         58,505               59,727
 W-144-R-1                        204,800              207,470
 W-144-R-2                        166,667              191,977
 W-144-R-3                        235,200              165,678
 W-145-R-1                        171,627              172,154
 W-145-R-2                        106,281              109,881
                             $31,032,548          $31,571,099          $553,977     $415,483
[1] Amounts represent the total outlays reported on the final SF269.




                                                         16
                                                                  Appendix 2

ILLINOIS DEPARTMENT OF NATURAL RESOURCES
               SITES VISITED

 Headquarters: Department of Natural Resources, Springfield, IL


                    Fish and Wildlife Areas
                          Middle Fork
                      Mazonia-Braidwood
                           Big Bend
                          Shelbyville
                         Kinkaid Lake
                         Turkey Bluffs
                          Rend Lake
                        Ten Mile Creek


                        Fish Hatcheries
                            LaSalle
                             Jake


                      Conservation Areas
                         Green River
                           Rice Lake
                         Saline County
                       Randolph County
                         Mermet Lake


                          State Parks
                           Kickapoo
                        Kankakee River
                           Sam Parr


                       Recreation Area
                        Clinton Lake




                              17
                                                                                Appendix 3


     ILLINOIS DEPARTMENT OF NATURAL RESOURCES
                           STATUS OF AUDIT FINDINGS
                            AND RECOMMENDATIONS

Recommendations                Status                         Action Required

A.1.1, A.1.2, A.2.1,   Finding Unresolved and    Provide a corrective action plan that
A.2.2, A.3.1, A3.2;    Recommendation Not        identifies the actions taken or planned to
B.1, B.2;              Implemented               resolve the finding and implement the
C.1, C.2;                                        recommendation, as well as the basis for
D.1, D.2                                         any disagreement with the recommendation.
                                                 The plan should also include the target date
                                                 and the official responsible for
                                                 implementation of the recommendation. If
                                                 the recommendation is not implemented at
                                                 the end of 90 days (after June 30, 2006), it
                                                 will be referred to the Assistant Secretary
                                                 for Policy, Management and Budget for
                                                 resolution and/or tracking of
                                                 implementation.




                                            18
